Audit Report



Return
    to the USDOJ/OIG Home Page




National Criminal History Improvement Program Grant Administered by the Indianapolis, Indiana Police Department
Grant Number 2001-RG-CX-K029

Report No. GR-50-04-004


April 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the National Criminal History Improvement Program (NCHIP) grant awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs
(OJP) to the Indianapolis, Indiana Police Department (Indianapolis PD). The overall goal of NCHIP is to improve the nation's public safety. One way it does so is by assisting states in implementing and upgrading Automated Fingerprint Identification Systems (AFIS). The Indianapolis PD was awarded $1.5 million towards the purchase of an enhancement to its AFIS that would enable digital capture of offender palmprints and subsequent comparison to palmprint evidence collected at crime scenes. In addition, the Indianapolis PD's manual library of palmprints was to be converted to a digital format.
We tested the Indianapolis PD's accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. The Indianapolis PD expended and received $1.5 million, and we found that the expenditures were properly accounted for, adequately supported, and allowable under the terms of the grant. However, although the subsystem became fully operational on June 30, 2003, the related equipment and software had not been entered into the grantee's property management system as of October 28, 2003.
Our results are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I.